No. _________________
SUPREME COURT OF THE UNITED STATES

JERMAINE TYRONE JONES,

PETITIONER,

vs.
UNITED STATES OF AMERICA,

RESPONDENT.

PROOF OF SERVICE
I, Frank W. Heft, Jr., a member of the Bar of this Court, state that on August
11, 2020, as required by Supreme Court Rule 29, I have served a copy of the enclosed
Petition for a Writ of Certiorari, Appendix to the Petition for a Writ of Certiorari,
and Motion for Leave to Proceed in Forma Pauperis by depositing them with the
United States Postal Service, with first class postage prepaid, properly addressed to:
Jeffrey B. Wall
Acting Solicitor General
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
All parties required to be served have been served.
Frank W. Heft, Jr.
Counsel of Record
Office of the Federal Defender
200 Theatre Building
629 Fourth Avenue
Louisville, Kentucky 40202
(502) 584-0525
Frank_Heft@fd.org
Counsel for Petitioner

